                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         OIG received information that a former NSF employee1accepted a position with an organization2
         he worked closely with in his official capacity. In addition, the complainant also stated that a
         current NSF employee3was in negotiations with the same organization for a job and that this
         employee had passed confidential program information to the former employee.

         Our investigation, disclosed that because the organization the former employee accepted,,a
         position with had not received funds directly from NSF, there was no impropriety with his
         accepting a position with that organization. In addition, our investigation revealed no evidence
         to support the allegations that the current NSF employee was in negotiations for a post-NSF job
         with the same organization or that this employee had improperly passed program information to
         the former employee.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
